No. _________
IN THE SUPREME COURT OF THE UNITED STATES

MICHAEL DESHAWN HOMER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas
Appendix C Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11137
Summary Calendar

FILED
June 23, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
MICHAEL DESHAWN HOMER,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:14-CR-141-1
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM: *
Michael Deshawn Homer appeals the revocation of his supervised
release and 18-month sentence of imprisonment imposed pursuant to
18 U.S.C. § 3583(g), which requires the mandatory revocation of supervised
release and imposition of a term of imprisonment for defendants found to have
committed certain offenses, including possession of a controlled substance. For
the following reasons, we affirm.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-11137
First, Homer argues that § 3583(g) is unconstitutional in light of the
Supreme Court’s decision in United States v. Haymond, 139 S. Ct. 2369 (2019),
because it does not require a jury determination of guilt beyond a reasonable
doubt. As he concedes, review of this unpreserved issue is for plain error,
which requires him to show (1) an error that has not been affirmatively waived,
(2) that is clear or obvious, and (3) that affected his substantial rights. See
Puckett v. United States, 556 U.S. 129, 135 (2009). If he can satisfy those three
prongs, this court has the discretion to correct the error if it seriously affects
the fairness, integrity, or public reputation of judicial proceedings. See id.
The

Supreme

Court’s

decision

in

Haymond

addressed

the

constitutionality of § 3583(k), and the plurality opinion specifically disclaimed
expressing any view of the constitutionality of § 3583(g). See Haymond, 139 S.
Ct. at 2382 n.7. In the absence of precedent from either the Supreme Court or
this court extending Haymond to § 3583(g), we conclude that there is no clear
or obvious error. See Puckett, 556 U.S. at 135; United States v. Badgett, 957
F.3d 536, 539-41 (5th Cir. 2020).
Second, to the extent that Homer asserts error related to the § 3583(d)
drug treatment exception to mandatory revocation under § 3583(g), it is not
clear that § 3583(d) was applicable in this case. See United States v. Brooker,
858 F.3d 983, 986 (5th Cir. 2017). Accordingly, he fails to demonstrate any
clear or obvious error with respect to the district court’s consideration of
§ 3583(d). See Puckett, 556 U.S. at 135.
Third, in light of our deferential abuse-of-discretion standard of review,
we are unpersuaded that the 18-month sentence, which was seven months
above the top of the advisory policy statement range, was substantively
unreasonable. See United States v. Warren, 720 F.3d 321, 332 (5th Cir. 2013).
AFFIRMED.

2

APPENDIX B

Case 5:14-cr-00141-H Document 29 Filed 03/06/15

Page 1 of 4 PageID 77

Case 5:14-cr-00141-H Document 29 Filed 03/06/15

Page 2 of 4 PageID 78

Case 5:14-cr-00141-H Document 29 Filed 03/06/15

Page 3 of 4 PageID 79

Case 5:14-cr-00141-H Document 29 Filed 03/06/15

Page 4 of 4 PageID 80

APPENDIX C

Case 5:14-cr-00141-H Document 56 Filed 10/11/19

Page 1 of 13 PageID 186

UNrrpo Srerps Drsrzucr Counr
NORTT{ERN DISTRICT OF TEXAS
LUBBOCK DTVISION

L]NITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
(For Revocation of Probation or Supervised Release)

Case Number: 5:

MICHAEL DESHAWN HOMER

l4-CR-00141-H(1)
USMNumber: 48707-177
Lara M. Wynn
Defendant's Attomey

THE DEFENDANT:
admitted guilt to violation ofcondition(s)

tr

Two Mandatory Conditions; Standard Condition No. 7; and Special
condition No. 3 of the term ofsupervision.

was lound in violation ofcondition(s)

after denial

ofguilt.

The defendant is adjudicated guilty ofthese violations

Violation Number

Nature of Violation

Violation Ended

See attached Petition
for Offender Under
Supervision.

A certified copy ofthe Judgment imposed on March 6,2015, in the U.S. District Court, Northern Dishict ofTexas, Lubbock Division,
is attached.

The defendant is sentenced as provided in pages 2 through 4 ofthisjudgment. The sentence is imposed pursuant to the Sentencing

Reform Act of 1984.

E

The defendant has not violated condition(s)

and is discharged as to such violation(s) condition.

It is ordered thal the defendant must notiS/ the United Slates attomey for this district within 30 days ofany change ofname,
residence, or mailing ad&ess until all fines, restitution, costs, and special assessments imposed by thisjudgment are fully paid. If
ordered to pay restitution, the defendant must notiry the court and United States attomey ofmaterial changes in economic
circumstances.

Last Four Digits ofDefendant's Soc. Sec. 1127

October I I 20 9
udgment

rtr

Defendant's Year of Birth: 1988
Si

City and State ofDefendant's Residence:
Lubbock Texas

of

udge

James Wesley Hendrix
United States Distdct Jud

Name and Title ofJudge

October 11, 2019
Date

Case 5:14-cr-00141-H Document 56 Filed 10/11/19
AO 245D (Rev. TXN 9/19) Judgment in

DEFENDANT:

CASENUMBER:

a

Page 2 of 13 PageID 187

Criminal Case

Judgment-Pagc2of4

MICHAEL DESIIAWN HOMER
5:14-CR-00141-H(1)

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bureau ofPrisons to be imprisoned for a total term
Eighteen (18) months.

X

The court makes the following recommendations to the Bureau of Prisons: Incarceration at FCI Big Spring, Texas.

X
tr

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall surender to the United States Marshal for this district:

n

at

as

tr p.m. on

a.m.

notified by the United States Marshal.

The defendant shall surrender for service ofsentence at the institution designated by the Bureau ofPrisons

fl
tr
n

before 2 n.m. on
as

notified by the United States Marshal.

as

notified by the Probation or Pretrial Services Office.

RETTIRN
I have executed this judgment

as

follows:

Defendant delivered on

at

to

with

a

certified copy ofthis judgment.

I

INITED STATF,S MARSHAI,

Bv
DEPUTY UNITED STATES MARSHAI

ot

Case 5:14-cr-00141-H Document 56 Filed 10/11/19
AO 245D (Rev. TXN 9/19.) Judgnent in

a

Criminal Case

DEFENDANT:

MICHAEL DESHAWN HOMER

CASE NUMBER:

5:14-CR-00141-H(1)

SUPERVISED RELEASE
No further supervised release is ordered.

Page 3 of 13 PageID 188
Judgment-Page3of4

Case 5:14-cr-00141-H Document 56 Filed 10/11/19

Page 4 of 13 PageID 189

AO 245D (Rev. TXN 9/19) Judgnent in a Criminal Case

DEFENDANT:
CASE NUMBER

Judgment-Pagc4of4

MICHAEL DES}IAWN HOMER
5:14-CR-00141-H(l )

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule ofpayments
Assessment

TOTALS

$29.9

tr

Restitution

Fine

$.00

$.00

r

dVAA Assessment*

IIVTA Assessment**

The determination ofrestitution is deferred until
An Amended Judgment in a Criminal Cqse (AO215C)
will be enlered after such dererminarion.
The defendant must make restitution (including community restitution) to the following payees in the amount
Iisted below.

If the defendant

makes a partial paymcnt, each payee shall receive an approximately propofiioned payment. However. pursuant
U.S.C. $ 3664(i). all nonfederal victims must be paid before the United States is paid.

tr
tr
tr

to

18

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine ofmore than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date ofthe judgment, pursuant to l8 U.S.C. $ 3612(f). All of the paynent options may be subjectto
penalties for delinquency and default, pursuant to 18 U.S.C. g 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

E
E

the interest requirement is waived for
the interest requirement for

the

the

E fine
E fine

tr
tr

restitution
restitution is modified as follows:

* Amy, Vicky. and Andy Child Pomography Victim Assistance Act of2018, Pub. L. No. t 15-299.
** Justica for Victims ofTrafficking Act of2015, Pub. L. No. I 14-22
*** Findings for the total amount oflosses are required under Chapters 1094., I 10, 110A, and I l3A ofTitle l8 for
September 13, 1994, but before

April 23,

1996.

offenses committed on or aftcr

